                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                Inspection of
                                  the U.S. Mission to the Organization for
                                 Economic Cooperation and Development,
                                               Paris, France

                                               Report Number ISP-I-12-27, May 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                            1
Context                                                  2
Executive Direction                                      4
Policy and Program Implementation                        7
  Economic Section                                       7
  Public Diplomacy                                      11
Resource Management                                     14
  Management Overview                                   14
  Real Property                                         14
  Human Resources                                       15
  Quality of Life                                       15
  Information Technology and Information Security       15
Management Controls                                     16
List of Recommendations                                 17
List of Informal Recommendations                        18
Principal Officials                                     19
Abbreviations                                           20




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The U.S. Mission to the Organization for Economic Cooperation and Development (OECD)
    has advanced U.S. strategic goals by securing OECD attention to a new vision statement for
    the organization’s future, a more coherent approach to development, Internet policymaking
    principles, Israel’s entry to the OECD, enhanced engagement with Middle East and North
    Africa nations on governance, a gender initiative, and Russia’s accession to the antibribery
    convention.

•   The Ambassador’s level of personal engagement on substantive and procedural issues has
    furthered U.S. policy goals and enhanced the U.S. profile at the OECD and among member
    state delegations.

•   The Ambassador has taken welcome steps to refocus her attention on a productive workplace
    and morale building.

•   Interagency delays and lack of coordination in clearing or commenting on OECD documents
    are impeding the advancement of U.S. priorities.

•   The mission faces a growing workload resulting from expanded OECD membership, new
    OECD initiatives, and reduced U.S. agency representation in the mission. The mission could
    meet some of this demand by using existing resources to expand its capacity.

•   The mission initiated the idea of virtual OECD meetings but needs to explore options for
    increased participation by U.S. agencies.

•   The language designation for three positions in the economic section could be eliminated
    without reduced mission effectiveness, realizing an estimated $168,000 in funds put to better
    use.

•   Mission staff members have not been reviewing classified reporting relevant to their areas of
    responsibility, and therefore mission reporting on occasion fails to reflect important
    knowledge from other sources.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 3 and 31, 2012, and in Paris,
France, intermittently between February 22 and March 19, 2012. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Context
        Considered the world’s premier multilateral economic organization, the OECD grew out
of the Marshall Plan for post-World War II European economic reconstruction. The United
States was one of OECD’s founding members in 1961, and the organization today includes
virtually all the world’s developed democracies. A majority of its 34 member states are
European. The OECD’s goals are to foster effective open markets, secure and stable energy
supplies, good governance, and sustainable market-based economic growth policies.

        U.S. assessed contributions to the OECD Part I (main part of the budget) for FY 2012
total approximately $53 million. The organization’s 2008 budget reform provides for a phased
reduction in U.S. assessed contributions to 18 percent of the total assessed budget by 2018.
However, the U.S. share of the budgets of the OECD’s affiliated agencies (Part II
organizations)—the International Energy Agency (IEA), the Nuclear Energy Agency (NEA), and
others—remains higher at 24.97 percent. Not all OECD members belong to the IEA and NEA,
which have distinct funding streams. Some member states have opposed budgetary reform in
such Part II OECD organizations.

        At least 20 U.S. departments or agencies participate in the work of the OECD’s
approximately 200 committees and working parties, which engage in research and report on
policy issues such as competition, macroeconomic forecasting, taxation, investment,
development, education, employment, labor and trade, and statistics.

         In recent years, the OECD has expanded its work on a development strategy, antibribery,
Internet principles, women’s economic empowerment, transparency in governance, and science-
based data on climate change. However, as the work of the OECD has expanded, the U.S.
Mission has grown smaller. In 2005, seven Federal agencies were represented; today the number
is four. 1 The total number of staff, both U.S. direct hire and locally employed, has declined from
35 to 25. Excluding the Ambassador and deputy chief of mission (DCM), each mission employee
is responsible for oversight of some 20 OECD subentities. Washington-based experts normally
attend more technical sessions, and the mission hosted approximately 1,900 such official visitors
in 2011.

        In the past decade, the OECD’s relevance as the preeminent international economic body
has been challenged by the rise of major developing states, such as Brazil, India, Indonesia,
China, and South Africa, which constitute an increasingly large part of the global economy.
Russia has been invited to apply for OECD membership and is aiming to meet OECD standards
by 2013. With strong U.S. support, the OECD has led a program of “enhanced engagement” with
Brazil, China, India, Indonesia, and South Africa. There are 70 nonmember states at the OECD
that participate in discussions; share data and best practices; contribute to various outreach
efforts; join committees and sub-bodies; and, in some cases, adhere to OECD standards.

      The United States strives to balance U.S. interest in leveraging the OECD to respond to
new challenges, such as the Arab Spring, green growth, and innovation strategies, while also

1
 The Department of State, U.S. Agency for International Development, Department of Energy, and Department of
Agriculture.
                                              2
                                 SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

protecting important core OECD activities and preventing budgetary increases. Currently,
member states are holding the OECD to zero real growth. A complicating factor for the U.S.
Mission is that assessed contributions are funded through the Department of State’s
(Department) Bureau of International Organization Affairs budget, whereas much of the work in
the OECD is performed by other U.S. Government agencies that have no stake in controlling
OECD costs.




                                         3
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Executive Direction
        In May 2011, the United States chaired the 50th anniversary OECD Ministerial Council
Meeting. In preparing for the meeting and the Secretary’s participation, the U.S. Mission sought
to build consensus around a concise vision statement that reoriented the organization and
highlighted U.S. priorities. The Ambassador knows the OECD and her fellow ambassadors very
well, and, according to several of her ambassadorial colleagues, she “glued the membership
together” through her work on the vision statement. She ably led efforts to coordinate the U.S.
Government’s role in the anniversary events while dedicating significant time and energy to all
three components of the ministerial meeting.

        According to several senior OECD officials, in the past the U.S. Government has not
always been clear about what it expects of the OECD. They also suggested that the United States
has lost opportunities at the OECD because not all U.S. ambassadors have possessed the
substantive knowledge or diplomatic skills needed to articulate and advance the U.S. agenda.
This dynamic, in turn, limited OECD’s overall effectiveness. Senior OECD officials and heads
of member state delegations interviewed agreed that the current Ambassador and her team have
outlined very clear U.S. priorities, including Internet principles, women’s economic
empowerment, green growth, and new strategies on economic development and innovation. They
have succeeded in raising the profile of those issues within the OECD. The results of this
renewed focus are evident: the OECD recommended Internet policymaking principles at its
December 2011 council meeting, committed to making its data openly available by 2015, and
launched a gender initiative in May 2011.

         The Ambassador works effectively with her counterparts to build support for U.S.
priorities on a broad range of issues that come before the OECD council. She uses a regular
series of lunches and dinners with ambassadors from four target groups—the G8 OECD
members, the Asia-Pacific Economic Cooperation members, women heads of delegation, and
heads of reform-minded delegations—to brainstorm, share information, and facilitate
cooperative decisionmaking. These events are important to the OECD ambassadors involved in
them and have, as a result, enhanced U.S. leadership.

        The DCM assumed her responsibilities only 6 months before the OIG inspection. She
devoted her initial months to several much-needed management initiatives within the mission but
is now engaging more frequently on policy and relationship building that parallels the
Ambassador’s work within OECD. Her extensive experience in the multilateral context should
aid the mission in extending the range of contacts and the quality of interactions with OECD
leadership at the deputy secretary general level, allowing the Ambassador to focus her efforts on
top leadership and the most complex policy issues. Because the DCM is likely to serve as chargé
d’affaires before the end of her tour of duty, the OIG team encouraged both the Ambassador and
DCM to expand the latter’s policy responsibilities as broadly as possible.

        The Ambassador and DCM are cognizant of their responsibilities for entry-level officer
development, but the entry-level officer mentoring program for all three Paris missions is
coordinated by the tri-mission management (TMM) section and is discussed in the Embassy
Paris inspection report, Inspection of Embassy Paris, France, and Constituent Posts (May 2012).

                                          4
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

The economic section at the U.S. Mission to the OECD has three entry-level officers. All have
substantive portfolios that are not dissimilar to those of their mid-level colleagues; consequently,
they have the same level of access to the Ambassador and input on policy as that of more senior
officers. In addition, the economic section chief conducts regular mentoring sessions for them.
The OIG team attended a representational event at the Ambassador’s residence that pulled
together senior American OECD staff. An entry-level officer planned the event from invitations
to talking points. This type of entry-level opportunity is commendable.

        The mission has excellent communication channels to the OECD and among the member
state delegations. Within the Department, the Ambassador is in regular and productive contact
with the Under Secretary for Economic Growth, Energy, and the Environment and his staff, but
the mission’s communications with the Bureau of Economic and Business Affairs (EB) and other
U.S. Government agencies have not always been as fluid and mutually beneficial. Some regular
conference calls between the mission and EB had lapsed over time. On occasion, management
has admonished staff for sharing information with Washington colleagues prematurely or on
issues that the Ambassador wanted to frame personally. Although the situation has improved,
staff members still have some concern over their authority to convey information on certain
topics via email to their Washington interlocutors. Because the mission’s economic section
officers coordinate the work of many OECD directorates and committees with more than 20 U.S.
Government agencies, it is vital to have open lines of communication with working-level
contacts. The OIG team counseled mission leadership regarding the need to empower staff in this
area.

        The mission recently has reinstated several lapsed communication channels to EB. The
advantages of this renewed partnership are obvious. Shared minutes from conference calls both
help disseminate information and create records upon which to base future discussions. The
mission and EB, however, have simultaneously reinstated so many communication vehicles that
several calls can occur on the same day. The mission has already taken steps to rationalize
scheduling in order to make the calls and digital video conferences maximally useful.

        The OECD produces many policy documents that require member state clearance. Some
delegations have significant interagency representation and can approve or comment on OECD
documents relatively quickly. Few delegations, including that of the United States, have the
capacity to read and summarize documents that might be more than 100 pages; those delegations
have to wait for their capitals to review and approve documents. The United States, however, is
unfailingly the last country to provide interagency clearance, often delaying program or policy
implementation by months and frustrating the OECD Secretariat and other delegations. When
EB needs to focus the interagency process in the lead-up to a time-specific, high-level event, like
the 2011 50th anniversary ministerial meeting, it is able to do so effectively. On more routine,
but important, issues, EB has not had similar success with the interagency process. One
document apparently took nearly 6 months to clear interagency hurdles. In another case, at least
eight U.S. Government agencies individually responded to a draft of the OECD’s development
strategy, and their responses arrived at the U.S. Mission without EB’s review or synthesis. Some
agency input conflicted with that of others, causing confusion and additional delay while the
mission sought consensus. This problem may stem from the fact that no regular meetings involve
interagency participation at a sufficiently high level to make clearance decisions quickly.

                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 1: The Bureau of Economic and Business Affairs should establish and
convene an interagency body, as needed, with an appropriate level of participation to make
expeditious interagency clearance decisions on the Organization for Economic Cooperation and
Development’s policy documents and provide the U.S. Mission with a unified position. (Action:
EB)

         Midway through the Ambassador’s tenure, the mission experienced an 8-month gap in
the economic section chief position. During that hiatus, the Ambassador herself assumed the
economic section chief’s role, assigning tasks and responding to day-to-day inquiries from the
seven economic officers. She also took over many of the working-level contacts in the OECD
that would normally have been handled by the economic section chief. This important staffing
gap—when combined with an unusually heavy workload; the lack of protocols governing
briefing materials, clearance procedures, and internal communications; a change of DCMs; and
faltering communications with important EB offices—resulted in stresses and occasional
interpersonal tensions that affected mission morale. In addition to the reinstatement of
communication channels mentioned earlier, the executive office instituted procedures that have
improved information flow. The Ambassador recently took several other important steps to
reverse declining morale. She has initiated one-on-one meetings with every staff member and
visits to the economic section, and she now reviews and comments on contributions to her
briefing book nightly, providing timely feedback to staff. Staff is uniformly appreciative of the
new atmosphere, and the Ambassador and DCM are committed to maintaining the new protocols
and can see improved productivity. The OIG team encouraged mission leadership to conduct
periodic 360-degree reviews of workflow and morale to ensure continued success.

       Because of its size, the U.S. Mission to the OECD does not, nor should it necessarily
have, an Equal Employment Opportunity (EEO) counselor on its staff. Some employees,
however, do not know who in the bilateral embassy to contact when EEO questions arise. The
Embassy Paris inspection report addresses EEO coverage of the multilateral missions.

        The regional security program is also run out of the bilateral mission. The classified
annex to the Embassy Paris inspection report addresses security issues related to the U.S.
Mission to the OECD. The Ambassador and the DCM provide the regional security program
their full support.




                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Economic Section

Overview

        As the largest part of the mission, the economic section contributed significantly to the
mission’s several policy achievements in 2011. The OECD has expanded its activities since the
2005 OIG inspection. With strong U.S. support, the OECD launched a 2007 initiative to enhance
engagement with Brazil, China, India, Indonesia, and South Africa pending their decision on
seeking future membership. In the past year, the OECD also launched broad-ranging initiatives
on gender, the Middle East and North Africa, and open access to OECD data, as well as an
important strategy to engage developing countries on governance issues. These initiatives cut
across different areas of the OECD’s directorates and committees, substantially raising the
organization’s profile while adding to the economic section’s workload. Following the summer
2011 staff turnover, the economic section struggled to establish a productive working
relationship with the mission’s executive office. The staff, however, noted that the situation has
improved noticeably and with it section morale.

Staffing

        Economic section staffing has not changed since 2005. The section, however, has had to
absorb some of the workload of several U.S. Government agencies that ended their permanent
mission presence in recent years, notably Treasury, the Department of Health and Human
Services, the Department of Commerce, and the Environmental Protection Agency. The section
handles the equities of at least 20 U.S. Government agencies with a direct interest in the OECD,
but the section’s eight Foreign Service officers do not have the technical expertise or years of
experience that these former agency representatives could bring to the table. There are some
steps, however, that the mission can take to expand its capacity using existing resources.

        The ratio of office management support staff to economic officers in the section is also
higher than needed, with four support staff for eight officers. The section is not taking full
advantage of the professional potential of its locally employed staff. One locally employed staff
member could, in fact, take on some policy work without sacrificing an acceptable level of office
management support within the section. Such an adjustment would allow the section to expand
its monitoring of and engagement in OECD activities.

Recommendation 2: The U.S. Mission to the Organization for Economic Cooperation and
Development should rewrite the position description of at least one locally employed staff
member in the economic section to include professional responsibilities for one or more
substantive portfolios. (Action: U.S. Mission to the OECD)

        The mission is already planning to make other internal adjustments that would add a
substantive portfolio to the existing secretary of delegation position that currently supports the
Ambassador and DCM with OECD document tracking and processing. That change will permit
the secretary of delegation to work more closely with the economic section, which will, in turn,

                                           7
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

relieve pressure on some of the economic officers who handle oversized portfolios. The OIG
team concurs with this strategy.

        The Department of Agriculture’s Animal and Plant Health Inspection Service has had a
senior employee assigned to the mission since 2001, but the incumbent actually works at the
World Organization of Animal Health. Over the years, this employee lost contact with mission
leadership, which did not even realize that he was included under chief of mission authority. At
the time of the inspection, the mission and the employee reestablished contact and appropriate
lines of authority. The mission plans to take advantage of the employee’s expertise to
supplement and enhance coverage of OECD agriculture issues.

Reporting

        Mission reporting has a broad and diverse Washington readership. In the 6 months prior
to the inspection, the volume of mission reporting fluctuated significantly, reflecting staffing
gaps, employee turnover, and paper flow bottlenecks. The economic section produces the
majority of the mission’s reporting, which is aligned with Washington’s priorities and of high
quality. The mission regularly provides commentary that adds value and context for Washington
consumers. The section, however, often reported on events weeks after they occurred, which
reduced the information’s usefulness. The mission has recently made adjustments in its report
clearance process that align it more closely with Foreign Service norms. The early results show
improved timeliness and increased reporting.

        The economic section uses email extensively to provide key Washington officials timely
information. However, email dissemination is more limited than that of cable traffic; email,
although useful, is not an appropriate substitute for front channel reporting. The economic
section’s weekly newsletter provides useful information to Washington consumers on meetings,
exchanges with other missions, and upcoming events.

         The section rarely uses the State Messaging and Archive Retrieval Toolset to send record
email. Not even the mission’s unclassified weekly newsletter is sent by record email. Mission
staff uses nonrecord email to convey information to Washington that Foreign Affairs Manual
regulation 5 FAM 443.2 requires be preserved. These include historical records relating, inter alia,
to the schedules for visitors; ongoing steps taken in the implementation of programs; and the
exchange of views on policy-related matters. Mission employees are unaware of when or how to use
record email, as very few have received training on its use.

Recommendation 3: The U.S. Mission to the Organization for Economic Cooperation and
Development should implement a training program for its employees on the use of the
Department of State’s record email system. (Action: U.S. Mission to the OECD)

        The economic section has not retired hard-copy files dating back to the 1990s. Neither
has it purged or archived its electronic files for several years. With the recent filling of a vacant
office management assistant position, the section is taking steps to comply with Department
requirements for the retirement of files.



                                            8
                               SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

        The majority of the OECD’s work involves unclassified information. (b) (5)




Recommendation 4: (b) (5)



Budget and Structural Reform

         The U.S. Mission is responsible for monitoring the OECD’s budget, proposing potential
economies, and striving for institutional reform. The OECD budget is complex. U.S.
contributions come from multiple agencies and from several parts of the Department. They are
based on a mix of assessed and voluntary contributions, the former at different rates depending
on whether funds are designated for Part I or Part II programs. For FY 2012, the U.S. share of
assessed contributions to the OECD (Part I) is approximately $53 million. For the same period,
U.S. contributions to the NEA and IEA (Part II organizations) total approximately $3.4 million
and $7.0 million, respectively. 2 Since 2008, the NEA and IEA budgets, again with strong U.S.
support, have been capped at zero nominal growth. At the same time, the budget of the OECD
itself has enjoyed zero real growth due to successful 2008 budget reform initiatives. The aim of
the United States and other like-minded member states supporting budget reform is to leverage
Part II budget reform because the United States pays a higher percentage of overall assessed
contributions to Part II organizations even though the totals are smaller than Part I contributions.

        U.S. Mission leadership has been attempting to advance Part II budget reform for the past
few years in an effort to replicate earlier successes on Part I reform, but Part II reform has proved
more difficult. There is an inherent conflict between member states and sometimes even among
U.S. Government agencies that want one or more parts of the OECD to invest more money on a
particular program when other member states and U.S. Government agencies are more focused
on budget reform. In response to the March 2011 Fukushima nuclear disaster, the United States
supported establishment of an exceptional fund that allowed NEA to respond. With a few
exceptions, senior Department officials have not engaged other OECD members in Paris,
Washington, or OECD member capitals on the issue of NEA and IEA budget reform.
Meanwhile, U.S. assessed contributions continue to comprise 24.97 percent of the budgets for
both institutions.



2
 The United States also pays assessed contributions to several other Part II organizations within the OECD and
contributes to the pension and reserve fund.
                                                9
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

American Employment in the Organization for Economic Cooperation and Development

        U.S. citizens make up a little more than 11 percent of OECD’s staff, below the 13 percent
level that the Department has set as a norm and well below the level of assessed contributions
that many countries use as a benchmark for national employment. An entry-level economic
section officer has responsibility for tracking and supporting U.S. citizen employment
applications. The officer relies on applicants’ informing either the mission or the Department of
their applications. To avoid favoritism, U.S. practice is to support a specific applicant only when
he or she is the sole American citizen candidate. The mission, however, often finds itself unable
to support an American applicant because the OECD does not keep member missions informed
about pending employment applications.

Recommendation 5: The U.S. Mission to the Organization for Economic Cooperation and
Development should, at a senior level, both seek a commitment from and a protocol with the
Organization for Economic Cooperation and Development to inform the mission when American
citizens apply for employment. (Action: U.S. Mission to the OECD)

Development Cooperation

        Traditionally, the mission’s U.S. Agency for International Development (USAID)
representative has been a senior Foreign Service officer. The previous incumbent retired in
December 2011, and USAID expects to assign an FS-01 officer to the position in the summer of
2012. Meanwhile, a senior Washington-based USAID official travels to Paris for approximately
2 weeks each month to represent USAID on the OECD’s development assistance committee and
to help formulate a new OECD development strategy with an emphasis on policy coherence.
Even with an impending several-month gap in its officer position, USAID may not renew the
professional assistant position, which in recent months has been the mission’s principal liaison
on development issues. The mission and USAID understand that downsizing and downgrading
the mission’s USAID presence will require closer coordination on activities related to
development.

Visitors

        The section supports visits from a large number of official delegates, many of whom are
in direct email communication with their counterparts on OECD committees and with the OECD
Secretariat when they are not in Paris. Washington officials in several U.S. agencies gave the
mission high marks for visitor support and for its coverage of OECD activities when budget
limitations preclude U.S. officials from traveling to represent their agencies at OECD meetings.
The economic section is not always able to represent other agencies in OECD, however, due to
competing priorities and lack of technical expertise.

        At the mission’s suggestion, the OECD’s education committee has recently begun to hold
virtual meetings among representatives in capitals, using digital video conferencing. This
practice has not extended beyond the OECD’s education committee, although the potential travel
cost savings for non-European member states is significant. The mission has suggested
expanding virtual meetings, but the OECD Secretariat has indicated that the technology would be
costly. Such virtual meetings, if implemented more widely, would help reduce the mission’s
                                          10
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

workload, reduce travel costs for several U.S. agencies, and facilitate U.S. engagement in the
OECD’s work. The mission is unaware of how many U.S. Government agencies would be
interested in using digital video conferencing for OECD committee work so that it could
encourage the OECD to expand its capacity accordingly.

Recommendation 6: The Bureau of Economic and Business Affairs, in coordination with the
U.S. Mission to the Organization for Economic Cooperation and Development, should develop
guidance on the use of digital video capabilities by U.S. Government agencies for participating
in virtual Organization for Economic Cooperation and Development meetings. (Action: EB, in
coordination with the U.S. Mission to the OECD)

Language-Designated Positions

        Three entry-level positions in the economic section are language designated. The duties and
responsibilities of these positions are similar to those of the other generalist positions in the
section, which are not language designated. The incumbents in the three language-designated
positions,3 their supervisor, and the DCM all agree that professional competency in French is not
essential to their OECD work. The OECD provides interpretative services for all its meetings, and
virtually all personnel from other OECD missions and the Secretariat speak English. Removing the
language designation on those three positions would save on average of 30 weeks of training for
each individual at an estimated cost of $65,000, for a total cost savings of $195,000, and also allow
the staff to start assignments earlier and reduce staffing gaps.

Recommendation 7: The U.S. Mission to the Organization for Economic Cooperation and
Development should request that the Department of State eliminate the language designation of
positions 14001006, 201456002, and 2014504 in the economic section. (Action: U.S. Mission to
the OECD)

Public Diplomacy

        The U.S. Mission conducts outreach and information activities both within the OECD
and to audiences in the United States and other countries. Although it can boast some successes
in advancing its media goals and has been able to meet the core requirements of a public affairs
program, the mission has not been able to make fully effective use of the relatively limited
resources at its disposal. A sole locally employed staff member handles public affairs. The
mission does not receive public diplomacy funding and does not have a Foreign Service officer
with public diplomacy responsibilities on its staff.

        The 2005 OIG report stated that the U.S. Mission to the OECD had “not organized itself
to make the best use of the existing information assistant position to develop and implement an
outreach and information plan.” 4 The current public affairs specialist has been in place since
2009, but the problem identified in 2005 appears to have been replicated 7 years later. Over the
past 3 years, this individual has been supervised by the former DCM, the former economic


3
    Positions 14001006, 201456002, and 2014504.
4
    Report No. ISP-I-05-09, February 2005.
                                               11
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

counselor, the Ambassador, and now, since the arrival of the current DCM, once again by the
DCM.

        Over this period, the public affairs specialist’s job requirements have changed. Just prior
to the arrival of the OIG team, the mission reviewed and updated the position description. At the
same time, the mission completed an overdue performance evaluation. Both these steps were
needed to address issues of supervision; however, all of these supervisors, especially the
Ambassador and DCM, are far too busy with other jobs to provide day-to-day supervision and
mentoring for this staff member. The mission does, however, have a number of mid-level
officers who currently do not have supervisory responsibility. Having one of these officers,
especially a public diplomacy-coned officer or someone who has done a public diplomacy
rotation, directly supervise the public affairs specialist will move supervision down to an
appropriate level, ensure closer communication with the economic section, and relieve the DCM
of an unreasonable supervisory burden.

       Informal Recommendation 1: The U.S. Mission to the Organization for Economic
       Cooperation and Development should reassign supervision of the locally employed
       public affairs specialist from the deputy chief of mission to a mid-level officer who has
       completed the appropriate information officer tradecraft course.

        The public affairs specialist has previous journalism and public relations experience but
no prior government public affairs experience. Although the mission has made several laudable
ad hoc attempts to provide adequate training, there has been no comprehensive training plan to
enable the employee to master the required skills. The bilateral mission’s well-staffed and
experienced public affairs section could assist in training; however, a more structured approach
may still be required. The mission wants to send the employee to the appropriate tradecraft
course at the Foreign Service Institute but has no funds to do so. Although training can be
expensive, having an employee whose lack of training prevents her from carrying out her job
requirements is also costly. The question for the mission is one of cost versus benefit.

Recommendation 8: The U.S. Mission to the Organization for Economic Cooperation and
Development should develop and fund a comprehensive training program for the public affairs
specialist. (Action: U.S. Mission to the OECD)

         The mission would like to carry out a full range of public affairs activities, including
preparing a daily media summary for internal use; maintaining a Web site, one or two Twitter
accounts, and a blog; conducting day-to-day media relations with journalists; working on media
outreach and op-eds; handling senior visitors; and coordinating mission speakers. With adequate
training and sustained supervision, the current public affairs specialist may be able to manage
some of these activities, but the mission may be trying to replicate a smorgasbord of activities
that is better suited to a much larger mission. The mission may not be thinking strategically nor
matching goals with resources and may have to eliminate tasks that are less essential or
duplicative. For example, the public affairs specialist currently prepares a daily press summary.
The OECD public affairs section prepares a similar, although less targeted, product for use by
member states. Although the timeliness and focus of the in-house product make it desirable, the
mission’s summary may duplicate much of the OECD’s product. Similarly, the mission’s goal of
engaging its publics through social media is praiseworthy, but ensuring that these social media
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

sites are lively, timely, accurate, and engaging requires scarce staff time. Although there may be
good reasons for supporting Twitter accounts, a Web site, and a blog, it is not clear that there is
an overall strategy for using specific social media to engage particular audiences, ensuring timely
clearance on messages, avoiding duplication, and weighing cost versus benefit.

Recommendation 9: The U.S. Mission to the Organization for Economic Cooperation and
Development should implement a coordinated public affairs strategy that addresses social media,
target audiences, clearances, and cost-benefit analyses. (Action: U.S. Mission to the OECD)

       Informal Recommendation 2: The U.S. Mission to the Organization for Economic
       Cooperation and Development should incorporate the revised list of duties into the public
       affairs specialist’s position description.




                                          13
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


Resource Management
                                           U.S.                             Foreign
                                                         U.S. Local-                        Total       Total Funding
              Agency                      Direct-                           National
                                                         Hire Staff                         Staff         FY 2011
                                         Hire Staff                          Staff
    Department of State
    Diplomatic and Consular                        15                  3               1          19          $2,137,800
    Programs
    Representation                                                                                                $25,800
    Department of Agriculture
    Animal and Plant Health                          1                                             1
    Inspection Service 5
    Agency for International                         1                                 2           3
    Development
    Department of Energy                             1                1                            2

    Totals                                         18                  4               3          25          $2,163,600
    Note: U.S. direct-hire salaries are not included in the diplomatic and consular programs funding total.

Management Overview

        The U.S. Mission to the OECD subscribes fully to International Cooperative
Administrative Support Services as its administrative support platform. The Embassy Paris
TMM section provides administrative services for the multilateral mission as well. The
embassy’s deputy management counselor is the senior management officer with responsibility
for the U.S. Mission to the OECD. Missionwide administrative support issues are covered in the
Embassy Paris inspection report.

Real Property

        In 2004, and as part of a master plan to improve the security of U.S. Government offices
in Paris, the U.S. Mission to the OECD was relocated from the chancery to the short-term leased
Raphael building, which it shares with the U.S. Mission to UNESCO and the Department of
Homeland Security’s U.S. Immigration and Customs Enforcement. The mission’s space is
adequate and attractive, and TMM maintains the building well. Lease and operating costs are
shared by the various tenants based on space occupied. Unfortunately, the mission’s staff is
spread over two floors, the first and the fourth, presenting challenges for internal
communications and team building.

       The Ambassador resides in an attractive U.S. Government-owned residence with
adequate space for her representational needs. The DCM’s residence was a gift to the U.S.
5
 The Animal and Plant Health Inspection Service employee is accredited to a different international organization
but is included in the U.S. Mission to the OECD’s staffing pattern and falls under that chief of mission’s authority.
                                                14
                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Government along with its valuable contents. The embassy’s general services and interior design
offices keep both residences in excellent condition. All other mission officers and specialists are
housed adequately in unfurnished short-term leased apartments or furnished apartments on one
of two government-owned compounds.

Human Resources

Official Residence Expenses

         Four official residence employees work at the Ambassador’s residence, and two work for
the DCM. The mission recognizes that five staff members between the two residences is
adequate and is planning to reduce the Ambassador’s residence staff number to three by
attrition. The inspectors encouraged this reduction as appropriate rightsizing.

Quality of Life

        Because quality-of-life issues affect staff equally at all three Paris missions, the Embassy
Paris inspection report includes a discussion of those issues and should be read in conjunction
with this report.

Information Technology and Information Security

        The Embassy Paris information management section is responsible for information
technology and information security issues at all three Paris missions. Thus all recommendations
on information technology and information security issues are included in the Embassy Paris
inspection report, which should be read in conjunction with this report.




                                          15
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        Generally, the OIG team found weaknesses in the areas of voucher certification and
travel authorization across all three missions in Paris. TMM is addressing these concerns.
Inspection team comments and recommendations in this area are included in the Resource
Management section of the Embassy Paris inspection report.




                                         16
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Economic and Business Affairs should establish and
convene an interagency body, as needed, with an appropriate level of participation to make
expeditious interagency clearance decisions on the Organization for Economic Cooperation and
Development’s policy documents and provide the U.S. Mission with a unified position. (Action:
EB)

Recommendation 2: The U.S. Mission to the Organization for Economic Cooperation and
Development should rewrite the position description of at least one locally employed staff
member in the economic section to include professional responsibilities for one or more
substantive portfolios. (Action: U.S. Mission to the OECD)

Recommendation 3: The U.S. Mission to the Organization for Economic Cooperation and
Development should implement a training program for its employees on the use of the
Department of State’s record email system. (Action: U.S. Mission to the OECD)

Recommendation 4: (b) (5)



Recommendation 5: The U.S. Mission to the Organization for Economic Cooperation and
Development should, at a senior level, both seek a commitment from and a protocol with the
Organization for Economic Cooperation and Development to inform the mission when American
citizens apply for employment. (Action: U.S. Mission to the OECD)

Recommendation 6: The Bureau of Economic and Business Affairs, in coordination with the
U.S. Mission to the Organization for Economic Cooperation and Development, should develop
guidance on the use of digital video capabilities by U.S. Government agencies for participating
in virtual Organization for Economic Cooperation and Development meetings. (Action: EB, in
coordination with the U.S. Mission to the OECD)

Recommendation 7: The U.S. Mission to the Organization for Economic Cooperation and
Development should request that the Department of State eliminate the language designation of
positions 14001006, 201456002, and 2014504 in the economic section. (Action: U.S. Mission to
the OECD)

Recommendation 8: The U.S. Mission to the Organization for Economic Cooperation and
Development should develop and fund a comprehensive training program for the public affairs
specialist. (Action: U.S. Mission to the OECD)

Recommendation 9: The U.S. Mission to the Organization for Economic Cooperation and
Development should implement a coordinated public affairs strategy that addresses social media,
target audiences, clearances, and cost-benefit analyses. (Action: U.S. Mission to the OECD)




                                         17
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The U.S. Mission to the Organization for Economic
Cooperation and Development should reassign supervision of the locally employed public affairs
specialist from the deputy chief of mission to a mid-level officer who has completed the
appropriate information officer tradecraft course.

Informal Recommendation 2: The U.S. Mission to the Organization for Economic
Cooperation and Development should incorporate the revised list of duties into the public affairs
specialist’s position description.




                                         18
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                Name    Arrival Date
Ambassador                           Karen Kornbluh             8/09
Deputy Chief of Mission             Jeri Guthrie-Corn           8/11
Economic Section Chief             Michael Koplovsky            8/11




                                      19
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
DCM             Deputy chief of mission
Department      U.S. Department of State
EB              Bureau of Economic and Business Affairs
EEO             Equal Employment Opportunity
FAM             Foreign Affairs Manual
IEA             International Energy Agency
NEA             Nuclear Energy Agency
OECD            Organization for Economic Cooperation and Development
OIG             Office of Inspector General
TMM             Tri-mission management
USAID           U.S. Agency for International Development




                            20
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
